                          UNCLASSIFIED

        United States Department of State
     and the Broadcasting Board of Governors
              Office of Inspector General




        Information Technology
         Memorandum Report


Review of the Information
 Security Program at the
  Broadcasting Board of
       Governors

Report Number I T-A-04-0 7 , September 2004




                              IMPORTANT NOTICE

 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector GeneraL No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure ofthis report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED
                                                      Introduction
        In response to the Federal Information Security Management Act of 2002 (FISMA),1 the Office
of Inspector General (OIG) performed an independent review and evaluation of the information
security program of the Broadcasting Board of Governors (BBG). FISMA provides a comprehensive
framework for establishing and ensuring the effectiveness of controls over information technology (IT)
resources that support federal operations and assets and a mechanism for improved oversight of federal
agency information security programs. In addition, Office of Management and Budget (OMB)
implementation guidance for FISMA requires OIGs to assess development, implementation, and
management of the agency-wide plan of action and milestones (POA&M) process and to focus on
performance measures. The specific objectives of OIG’s review were to assess BBG’s progress in
developing its information security program and practices as they relate to FISMA and determine
BBG’s processes for implementing the requirements of the law.

       To fulfill the review objectives, OIG met with BBG officials from the International
Broadcasting Bureau (IBB), Radio Sawa, Office of Cuba Broadcasting (OCB), and two overseas
transmitting stations in the Philippines. OIG did not conduct a detailed review of BBG’s grantee
organizations, Radio Free Europe/Radio Liberty (RFE/RL), Radio Free Asia (RFA), and Middle East
Television Network, but did hold meetings and gathered relevant documentation to assess each
organization’s approach to handling IT information security. OIG also did not conduct a review of
Radio Farda, a joint effort of RFE/RL and Voice of America. Grantees are private, nonprofit
organizations that own and operate their own IT systems.

        In addition to discussions with BBG management and staff, OIG performed a detailed analysis
of BBG’s system risk assessments and general support system and major application security plans.
OIG collected other relevant supporting IT documentation as appropriate. OIG’s IT staff performed
this review from April 2004 through the first week of September 2004. Major contributors to this
report were Lynn Allen, James Davies, Mary Heard, Anthony Carbone, and Brandon Carter.
Comments or questions about the report may be directed to Mr. Davies at daviesj@state.gov or (703)
284-2673.




1
    P.L. 107-347, Title III; 44 U.S.C. 3541 et seq.
                                                 Results in Brief
        OIG’s evaluation of the BBG’s information security program concluded that BBG has made
progress in the past year in reorganizing its IT program. As of May 30, 2004, BBG had appointed a
Chief Technology Officer (CTO), a new Chief Information Officer (CIO), and a Chief Information
Security Officer (CISO). Additionally, BBG defined 24 major systems; performed risk assessments;
and developed general support system and major application system security plans, operating system
security configuration standards, patch management policies, an incident response plan, and a user IT
security training program. BBG has developed POA&Ms for 10 of its 24 systems and is working on
completing the remaining 14 POA&Ms as required. The first FY 2004 quarterly report to OMB under
the new reorganization structure in July identified 20 information security weaknesses within the 10
completed POA&Ms, of which two weaknesses were corrected.

        Despite this progress, several key areas of information security still require management
attention. BBG’s CIO has not developed an agency-wide enterprise architecture as required by
FISMA implementation guidance and the earlier enacted Clinger-Cohen Act.2 Also, BBG’s
transmitting stations need headquarters guidance to meet information security requirements.




2
    Information Technology Management Reform Act of 1996, P.L. 104-106, Div. E; 40 U.S.C. 11101 et seq.
                                                  Background
        The U.S. International Broadcasting Act of 19943 created BBG as a self-governing element
within the former United States Information Agency, which provided limited administrative, technical,
and management support to BBG. The Foreign Affairs Reform and Restructuring Act of 19984
granted BBG independence from United States Information Agency on October 1, 1999. With the
exception of limited Department of State broadcasting, BBG is responsible for overseeing all U.S.
government-funded civilian broadcasting, including the operations of IBB, which includes Voice of
America, and OCB. BBG also oversees three grantee organizations: RFE/RL, RFA, and Middle East
Television Network. Additionally, BBG oversees Radio Sawa, which is to be converted to grantee
status during October 2004, and Radio Farda, a joint effort of RFE/RL and Voice of America that
complements Voice of America’s Persian-language radio and television broadcasts into Iran.

        Information security is an important consideration for any organization that depends on
information systems and information networks to carry out its mission. The dramatic expansion and
rapid increase in the use of the Internet has changed the way the U.S. government, private sector, and
much of the world communicate and conduct business. However, without proper safeguards, this
widespread interconnectivity poses significant risks to the infrastructure it supports and makes it easier
and relatively inexpensive for individuals and groups to eavesdrop on government operations, obtain
sensitive information, commit fraud, disrupt operations, or launch attacks against other information
networks and systems. The war on terrorism and recent terrorist attacks underscore the need to
maintain information security in order to continue program broadcasting to BBG audiences relying on
impartial reports via satellite television and radio. U.S. broadcasting initiatives, which use information
systems and information networks to complete their mission, counter the efforts of local newspapers
and broadcasters that portray the United States as anti-Muslim.

       Faced with continued concerns about information security risks to the federal government,
Congress passed and the President signed FISMA into law in December 2002. The law provides a
comprehensive framework for establishing and ensuring the effectiveness of controls over information
resources that support federal operations and assets and a mechanism for improving oversight of federal
agency information security programs. Also, FISMA and OMB implementation guidance specifically:

           • 	 require agency OIGs to assess the development, implementation, and management of the
               agency POA&M process;
           • 	 require agency development of minimum standards for agency systems;
           • 	 introduce a statutory definition for information security;
           • 	 define agency IT security responsibilities; and
           • 	 broaden the scope of the Clinger-Cohen Act to include federal information systems used or
               operated by contractors acquired for use on federal contracts.

FISMA and OMB implementation guidance also require that each agency:

           • 	 develop and maintain a major information systems inventory;

3
    P.L. 103-236, Title III, Sec. 301 et seq.
4
    P.L. 105-277.
           •   develop system configuration requirements;
           •   perform annual periodic testing and evaluation of systems;
           •   include provisions for continuity of operations in its security program;
           •   have a qualified senior agency information security officer report to the CIO; and
           •   send annual reports to OMB and various congressional committees.

Overview of BBG’s Information Security Program

        OIG saw in February 2001 that BBG did not have a documented information security program
or written policies and procedures covering information security. During 2001, BBG’s senior
management began taking actions to develop its IT security program by appointing a CIO who drafted
a framework for the BBG information security program and started developing security plans to
protect BBG’s mission-critical systems. During its 2002 Government Information Security Reform
Act (GISRA) evaluation,5 OIG noted that BBG was making progress in developing its agency-wide
information security program by completing program-level self-assessments and documenting the
results in its quarterly reporting of the agency’s POA&M to OMB. In OIG’s 2003 FISMA evaluation,6
OIG reported that BBG had made limited progress in complying with the requirements of FISMA.

        OIG closed five of its nine recommendations from the GISRA 2002 and FISMA 2003
evaluations. BBG continues to work toward closing the remaining recommendations by implementing
actions designed to develop system security plans and functional-level contingency plans, complete an
agency-wide information security program plan and timeline for completion of FISMA requirements,
and provide each functional area with guidance to develop POA&Ms, system-level security plans, and
self-assessments.

         In April 2004, Congress approved and on May 30, 2004, BBG implemented a reorganization of
its IT functions into a common program area, Engineering and Technical Services Directorate, which
incorporated OCB, Voice of America, and IBB activities. BBG assigned the director of Engineering
and Technical Services Directorate as the CTO and appointed a CISO.

        In FY 2004, to meet the requirements for developing an agency-wide security program, BBG
defined 24 major systems under two program areas. Additionally, BBG performed risk assessments,
and developed general support system and major application system security plans, operating system
security configuration standards, patch management policies, an incident response plan, and a user IT
security training program. Also, BBG developed POA&Ms for 10 of its 24 major systems and
provided OIG with a program action plan, which addresses BBG’s approach to creating an agency-
wide continuity of operations plan, system-level risk assessments, security plans, and POA&Ms.




5
    Information Security Program Evaluation: Broadcasting Board of Governors (IT-A-02-07, Sept. 2002).
6
    Review of the Information Security Program at Broadcasting Board of Governors (IT-A-03-14, Sept. 2003).
                                         Review Findings

Progress in Developing BBG’s Information Security Program
        BBG changed its IT organizational structure in FY 2004, establishing and filling senior-level IT
management positions and consolidating disparate units under one IT authority. Under the revised
structure, BBG is making progress in developing its information security program to meet FISMA
requirements. OIG supports BBG’s progress in developing its IT program and is not making
recommendations where BBG management is taking action or developing plans to correct weaknesses
and deficiencies. OIG encourages BBG senior management and staff to continue developing its IT
program to meet FISMA requirements and National Institute of Standards and Technology (NIST)
guidance.

Progress in Meeting FISMA Requirements
        In the FY 2002 GISRA evaluation, OIG disagreed with BBG’s approach in grouping all
systems within five functional areas because this organizational structure did not appear to meet
GISRA security requirements. During the FISMA evaluation of BBG in FY 2003, OIG also reported
that the BBG CIO had neither the time nor the IT qualifications to carry out the CIO’s role and had not
assigned a senior agency information security officer and information system security officers. In
addition, during FY 2003, IBB’s director noted several IT operational deficiencies and areas for
improvement and hired a contractor to perform an independent review of the BBG IT services,
management, and operations. The independent review identified BBG’s lack of effective
communication and collaboration among program areas. The independent review recommended a
restructuring of BBG’s IT organization.

        In April 2004, Congress approved and on May 30, 2004, BBG implemented a reorganization of
its IT management structure, responsibilities, and functions, establishing the Engineering and
Technical Services Directorate for overall IT program management and for the IT functions in OCB,
Voice of America, and IBB. BBG named the director of Engineering and Technical Services
Directorate as the CTO, with responsibility for all engineering and transmission service functions, and
added a new consolidated Information Technology Directorate. BBG appointed a qualified CIO and
CTO to direct and oversee a broad range of statutory functions, including meeting the FISMA
requirements. The CIO reports directly to the Board on all IT matters. Lastly, BBG created and the
CIO filled the CISO position that reports directly to the CIO and is responsible for overseeing and
participating in planning, assessing, and testing of IT operations and ensuring compliance with
FISMA.

       Since last year’s FISMA report, the agency has taken steps to meet FISMA and NIST guidance
for developing an agency-wide IT security program. (See Appendix A.) Specifically, BBG defined 24
major systems under the Engineering and Technical Services Directorate. OIG found that managers
were still unsure of the number of major systems they were responsible for, and the CIO agreed to
review the number of major systems before next year’s FISMA evaluation. Additionally, BBG
developed operating system security configuration management policy for many of its operating
systems. Also, BBG developed a generic incident response plan for use at headquarters that it plans to
further refine for use at its transmitting stations and other field operations. Lastly, BBG’s management
effectively incorporated user IT security training into its overall IT security program.

       BBG performed adequate risk assessments and developed general support systems and major
application system security plans and POA&Ms for 10 of its 24 major systems. However, much of the
documentation BBG developed is not at the individual system level. BBG lacks IT policies and
procedures, but has developed a program action plan to address the lack of documentation at
transmitting stations, continuity of operations plans, certification and accreditation, training of the IT
support staff, POA&Ms, and vulnerability and penetration testing. BBG management intends to
complete the program action plan by mid-FY 2005.

Developing an Enterprise Architecture
        BBG has not developed an agency-wide IT enterprise architecture or capital planning and
investment control process. In discussions with OIG, the new CIO acknowledged the need for both
and explained that BBG is determining how it will develop its enterprise architecture. Additionally,
BBG has made limited progress in tying budget requests to the business case process. The new CIO
said that BBG would address this requirement with its current FY 2006 budget cycle. The enterprise
architecture will help ensure that BBG aligns its information system requirements with its business
processes and provides adequate interoperability between systems, desired redundancy of systems, and
necessary systems security.

        The enterprise architecture is required by the Clinger-Cohen Act, and it is reinforced by
FISMA and OMB guidance. Agency CIOs should, at a minimum, develop an enterprise architecture
that includes the agency’s business processes, information flows, hardware and software, data
descriptions, and the IT infrastructure.

       FISMA, Clinger-Cohen Act, and OMB guidance also make agencies responsible for
developing and maintaining a capital planning and investment control process. This process requires
agencies to have two separate and distinct plans. The Information Resources Management Strategic
Plan, which includes all IT resources of the agency and the agency Strategic Plan required by OMB
Circular A-11, which ensures that IT decisions are a part of organizational planning, budget decisions,
and IT procurement.

       Recommendation 1: OIG recommends that the Chairman, Broadcasting Board of Governors
       direct the Chief Information Officer to develop an enterprise architecture that will help the
       Broadcasting Board of Governors align its information system requirements with its mission
       processes and provide adequate interoperability between systems, redundancy of systems, and
       systems security.

       BBG Response

     BBG concurred with this recommendation and said it has no comments regarding the 

recommendation, other than to note the matters cited have already been identified by the CIO and 

BBG IT management officials, who plan to address them more fully in the coming year.

       OIG Comment

        OIG accepts BBG’s response and considers this recommendation resolved. OIG will consider
closing this recommendation when BBG provides documentation showing that it developed an
enterprise architecture that aligns its information system requirements with its mission processes and
provides adequate interoperability between systems, redundancy of systems, and systems security.

       Recommendation 2: OIG recommends that the Chairman, Broadcasting Board of Governors
       direct the Chief Information Officer to develop a capital planning and investment control
       process that includes all agency information technology resources and ensures that information
       technology decisions are included in the agency’s organizational planning, budgeting, and
       procurement decisions.

       BBG Response

      BBG concurred with this recommendation and said it has no comments regarding the
recommendation, other than to note the matters cited have already been identified by the CIO and BBG
IT management officials, who plan to address them more fully in the coming year.

       OIG Comment

       OIG accepts BBG’s response and considers this recommendation resolved. OIG will consider
closing this recommendation when BBG provides documentation showing that it developed a capital
planning and investment control process that includes all agency IT resources and ensures that IT
decisions are included in the agency’s organizational planning, budgeting, and procurement decisions.


Providing Guidance to Transmitting Stations
        OIG found that transmitting station managers were generally aware of FISMA and, in some
instances, had received some information on headquarters security plans, risk assessments, and
incident response handling. However, at the two transmitting sites OIG reviewed in the Philippines,
managers were not aware of their responsibilities for satisfying information security requirements at
the stations. They had started receiving information from headquarters concerning information
security, FISMA, and the NIST guidance in late May 2004, when BBG implemented its new
organizational structure. The station managers were notified that they were to be the station FISMA
program managers, but their responsibilities were not spelled out.

        Station managers were aware of basic information security requirements, but lacked
headquarters instructions and guidance on adapting generic plans, policies, and procedures for use at
the stations and on conducting system self-assessments and developing POA&Ms as required by
FISMA. Station managers were aware of the organizational IT changes and were looking forward to
receiving headquarters guidance to put the necessary information security measures in place.

      In OIG’s opinion, much of the success of BBG’s IT security program depends on station
managers’ having adequate headquarters instructions and guidance to meet their IT security
requirements as defined under FISMA. Failure to develop such guidance could adversely affect
BBG’s agency-wide security program.

       Recommendation 3: OIG recommends that the Chairman, Broadcasting Board of Governors
       direct the Chief Information Officer to provide station managers with instructions and guidance
       to adapt information technology security plans, policies, and procedures for use at transmitting
       stations.

       BBG Response

      BBG concurred with this recommendation and said it has no comments regarding the
recommendation, other than to note the matters cited have already been identified by the CIO and BBG
IT management officials, who plan to address them more fully in the coming year.

       OIG Comment

       OIG accepts BBG’s response and considers this recommendation resolved. OIG will consider
closing this recommendation when BBG provides documentation showing it provided instructions and
guidance to station managers to adapt their IT security plans, policies, and procedures.
                                       Recommendations
Recommendation 1: OIG recommends that the Chairman, Broadcasting Board of Governors direct
the Chief Information Officer to develop an enterprise architecture that will help the Broadcasting
Board of Governors align its information system requirements with its mission processes and provide
adequate interoperability between systems, redundancy of systems, and systems security.

Recommendation 2: OIG recommends that the Chairman, Broadcasting Board of Governors direct
the Chief Information Officer to develop a capital planning and investment control process that
includes all agency information technology resources and ensures that information technology
decisions are included in the agency’s organizational planning, budgeting, and procurement decisions.

Recommendation 3: OIG recommends that the Chairman, Broadcasting Board of Governors direct
the Chief Information Officer to provide station managers with instructions and guidance to adapt
information technology security plans, policies, and procedures for use at transmitting stations.
                                       Abbreviations
BBG      Broadcasting Board of Governors

CIO      Chief Information Officer

CISO     Chief Information Security Officer

CTO      Chief Technical Officer

FISMA    Federal Information Security Management Act of 2002

GISRA    Government Information Security Reform Act

IBB      International Broadcasting Bureau

IT       Information technology

OCB      Office of Cuba Broadcasting

OMB      Office of Management and Budget

OIG      Office of Inspector General

POA&M    Plan of action and milestones

RFA      Radio Free Asia

RFE/RL   Radio Free Europe/Radio Liberty
                                                                                                                Appendix A



                                  BBG Progress in Developing a Security Program

                                                               BBG Planned and Completed GISRA/FISMA Work
FISMA and OMB Implementation Guidance
                                                   GISRA 2002 Requirements     FISMA 2003 Requirements     FISMA 2004 Requirements
Enterprise Architecture                                      No                          No                           No
Agency-wide Information Security Program Plan              Partially                   Partially                   Partiallya
Periodic Risk Assessments                                  Partially                   Partially                   Partiallyb
Policies and Procedures                                      No                        Partially                   Partiallyc
Systems Inventory                                            No                        Partially                   Partiallyd
System Security Plans                                      Partially                   Partially                   Partiallye
Periodic Testing of Policies and Procedures                  No                          No                           No
Plan of Action and Milestone (POA&M)                       Partially                   Partially                   Partiallyf
Security Incident Reporting Procedures                       No                        Partially                     Yes
Senior Agency Information Security Officer                   No                          No                          Yes
Security Awareness Training                                  No                          No                          Yes
Contingency Plans                                          Partially                   Partially                   Partiallyg
Configuration Standard & Patch Manag. Policy                 n/a                         n/a                       Partiallyh
Self-Assessments (NIST SP 800-26)                          Partially                   Partially                   Partiallyi
System Certification & Accreditation                         No                          No                          Noj
OMB Executive Summary                                        Yes                         Yes                         Yes

    Legend:Yes indicates BBG completed the requirement.
           No indicates that the requirement was not started.
           Partially indicates the task is in process but not completed.
           n/a indicates requirement did not apply during this period.




    a
      Pending OMB approval.

    b
      For FY 2004, BBG reorganized its IT program from four domains to 24 major systems. It, however, has not yet

    completed periodic risk assessments for its 12 transmitting stations. Risk assessments are scheduled for completion in FY 

    2005. 

    c
      In FY 2003, BBG hired a contractor to develop policies and procedures for the Office of Computing Services. The 

    policies and procedures would later be distributed throughout the agency. However, BBG has not yet distributed them. 

    d
      For FY 2004, BBG defined 24 major systems for FISMA purposes. However, it has not yet developed an enterprise 

    architecture that would help it define all of its systems. 

    e
      For FY 2004, BBG has developed system security plans for 13 of its 24 major systems and is working to complete plans 

    for the remaining 11. 

    f
      For FY 2004, BBG developed POA&Ms for 10 of its 24 major systems and intends to complete the remaining 14 in FY 

    2005. 

    g
      BBG has 2 of 24 major systems with contingency plans. 

    h
      BBG has written configuration standards and patch management policy for 5 of its 10 operating systems. 

    i
      BBG has not yet completed self-assessments for FY 2004. 

    j
      BBG started the system certification and accreditation process for its major systems. System certification and 

    accreditation is scheduled for completion in FY 2005. 

                                                                                                            Appendix B

                              Comments From the Broadcasting Board of
                                           Governors


              BROADCAS1lNG BOARD OF GOVERNORS
              UNITED SfATES OF AMERICA




                                                       September    16~   2004

          Mr. Lynn Allen
          Assistant Inspector General
          Department of State
          2201 C. Street, N.W.
          Washington, D.C. 20520

          Dear Mr. Allen:

          The Broadcasting Board of Governors appreciates the opportunity to review and
          comment on your Memorandum Report IT-A-04-07 titled, Review o/the Information
          Security Program at Broadcasting Board o/Governors, September 2004.

          The BHG is pleased that the Report finds that several of its recent actions designed to
          strengthen information management operations have contributed to visible progress in the
          development of information security programs. These actions include a major re­
          organization of information technology functions and staff in the IBB, a clarification <;md
          re-emphasis of the role of the Chief Information Officer, and the appointment ofa full­
          time Chief Information Security Officer. BBG anticipates that, as this new IT
          organization and management matures, we will make increasingly efficient progress in
          ensuring the security of our information operations and in complying with the extensive
          scope of information security regulations. We are pleased to acknowledge the continuing
          assistance of-the OIG's Information Technology staff in advising the CIO and other IT
          officials regarding many relevant security matters.

          The BBG concurs with the three recommendations contained in the Report. At this time
          we have no comments regarding the recommendations, other than to note the matters
          cited have already been identified by the CIO and IBB Information Technology
          management officials who plan to address them more fully in the coming year. Also
          some of the recommendations, those that address required development of IT plans and
          related compliance documentation, are resource intensive and may require more than a
          year to accomplish fully. We will of course keep your IT staff informed of progress in
          accomplishing the recommendations as they occur.

                                                       Sincerely,




                                                       Kenneth Y. Tomlinson
                                                       Chairman


330 INDEPENDENCE AVENUE. SW    ROOM 3360   COHEN BUILDING    WASHINGTON. DC 20237    (202) 401-3736   FAX (202) 401-6605
